Supreme Court of the United States
Office of the Clerk
Washington, DC 20543-0001
May 6, 2021

Scott S. Harris
Clerk of the Court
(202) 479-3011

Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
Melanie Lynn Bostwick
Orrick, Herrington & Sutcliffe LLP
1152 15th Street NW
Washington, D.C. 20005
Re: No. 19-720, United States v. Riley Briones, Jr
Dear Counsel:
I am writing to inform the parties that Justice Kagan, while serving as Solicitor
General, waived the filing of a brief in opposition in an earlier phase of this case. The
ordinary conflict check conducted in Chambers inadvertently failed to find this action.
Justice Kagan’s inadvertent participation did not affect the disposition of the case.
Sincerely,

Scott S. Harris
Clerk of the Court

